IN THE

Supreme Court of the Anited States

No. 19-832

APPLE INC.,

Petitioner,
v.

VIRNETX INC. AND LEIDOS, INC.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF SERVICE

I hereby certify that on this 2nd day of January, 2020, I caused one copy of
Respondents’ Letter of January 2, 2020, to the Clerk of the Court to be served on the
counsel of record as follows:

By overnight delivery and email to:

E. Joshua Rosenkranz

ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street

New York, NY 10019

(212) 506-5380

jrosenkranz@orrick.com

Counsel for Apple Inc.

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on January 2, 2020.

   

DONALD URRABAZO

URRABAZO Law, P.C. ‘counsel of Record

2029 Century Park East, Suite 400 MOLOLAMKEN LLP

Los Angeles, CA 90067 The Watergate, Suite 660

(810) 388-9099 600 New Hampshire Ave., N.W.

durrabazo@ulawpc.com Washington, D.C. 20037

C L for Ri dent (202) 556-2000

Leidos, for esponaens jlamken@mololamken.com
Counsel for Respondent
VirnetX Inc.
